                                                    SENSITIVE BUT UNCLASSIFIED



    fA
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                   Inspection of
                                             Embassy Caracas, Venezuela

                                          Report Number ISP-I-12-09A, February 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                  Table of Contents

Key Judgments                                                  1
Context                                                        2
Executive Direction                                            3
  Leadership                                                   3
  Mission Strategic and Resource Plan and Public Diplomacy     3
  Security and Mission Preparedness                            4
  (b) (5)                                                      4
  Official Visas and Washington Support                        4
  Entry-Level Officer Program                                  5
  Equal Employment Opportunity Program                         5
Policy and Program Implementation                              6
  Political and Economic Sections                              6
  Foreign Commercial Service                                   8
  Law Enforcement                                              8
  Public Diplomacy                                             9
  Consular Affairs                                            12
  Maracaibo Consular Agency                                   18
Resource Management                                           19
  Management Section                                          19
  International Cooperative Administrative Support Services   21
  (b) (5)                                                     22
  Facilities Management                                       24
  Human Resources                                             26
  Locally Employed Staff Issues                               27
  Financial Management                                        30
  (b) (5)                                                     30
  Information Management and Information Security             34
Quality of Life                                               37
  Community Liaison Office                                    37
  Health Unit                                                 37
  (b)(5)(b)(6)                                                38
Management Controls                                           39
  Consular Management Controls                                41
List of Recommendations                                       43
List of Informal Recommendations                              49
Principal Officials                                           52
Abbreviations                                                 53




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Lengthy staffing gaps in the front office have undermined mission oversight and
       contributed to management deficiencies and poor morale. Now that the front office is
       fully staffed, the chargé and the deputy chief of mission (DCM) are addressing these
       shortcomings.

   • (b) (5)



   •   Past inadequate front office oversight, prolonged staffing shortages in key management
       positions, weak section leadership, and lack of a customer service focus combined to
       produce significant deficiencies in support.

   • (b) (5)



   •   The information management program faces immediate challenges. Bandwidth
       limitations and diplomatic mail operations, in particular, require urgent attention.

   •   The consular section is emerging from a lengthy period of ineffective leadership. (b)
       (b) (5)                                                                                (5)

       This challenge has public diplomacy, security, commercial, and management
       ramifications.

   •   Political and economic reporting has been effective, despite restricted access to
       Venezuelan policymakers. More analytical reporting is needed.

   •   The public affairs section (PAS) has a robust program, including a network of effective
       binational centers that take the embassy’s message nationwide. However, the PAS needs
       to develop formal written media engagement and alumni outreach plans.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

       The inspection took place in Washington, DC, between September 13 and 28, 2011; in
Caracas, Venezuela, between October 13 and November 3, 2011; and in Maracaibo, Venezuela,
on October 19 and 20, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


  Context
(b) (5)




          Since 1958, Venezuela has had an elected civilian president and assembly, although the
  democratic tradition has been marred by corruption, clientalist politics, and harsh persecution of
  political adversaries. Its next presidential election is scheduled for October 2012. President
  Chavez launched his “Bolivarian Revolution” in 1999, which continues to shape the political
  landscape.

          Venezuela’s economy is heavily dependent on petroleum, which accounts for one-third of
  its gross domestic product, 80 percent of its export earnings, and roughly half its government
  revenue. Its proven petroleum reserves are among the 10 largest in the world. The dominant
  petroleum sector is government controlled and funds the Chavez government. The per capita
  gross domestic product is $13,000 per year, with a significant disparity in income despite
  Chavez’s programs to distribute resources to the poorer classes. Venezuela’s current 2.5 percent
  growth rate is recovering from negative growth in 2010 due, in part, to the global recession.
  Multiyear inflation, which is likely higher than the official 25 percent rate in 2011, affects
  embassy operations. Despite long-standing political friction, the United States remains
  Venezuela’s largest trading partner and export destination, mostly of crude and refined
  petroleum. U.S. exports to this important market exceed $10 billion annually.
          (b) (5)
                                                      The embassy has been without an ambassador
  since July 2010 and is short staffed in key areas. Staffing is complicated by a preponderance of
  first-tour, entry-level officers (ELO) and inexperienced LE staff, because of attrition caused in
  part by low local salaries. Both permanent staff and temporary duty support visits have been
  restricted by Venezuelan visa issuance, which impinges on mission operations.




                                             2
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The mission is led by a chargé, a former Ambassador with Latin American experience.
He had been at post only 3 weeks at the time of the inspection. He is supported by an
experienced DCM who arrived in July 2011, approximately 4 months before the inspection. The
two are forming a good team, with the new chargé assuming chief of mission (COM) duties and
the DCM focusing principally on internal management. The chargé chairs weekly country team
meetings and a series of more focused meetings with agency or section heads, which the DCM
attends. The DCM meets with selective section or agency heads as necessary. Meetings are
collegial.

Leadership

       Upon her arrival, the new DCM assumed duties of chargé and took steps to clarify the
embassy’s direction. The DCM received widespread compliments from agency heads during her
period as chargé for her openness and grasp of their respective missions.

       The arrival of the permanent chargé as COM in October 2011 strengthened embassy
leadership significantly. There is no expected date for a new ambassador. Mission personnel are
encouraged that the front office is now fully staffed and experienced.

        Between July 2010 and October 2011, the two interim chargés, including the current
DCM, relied upon a series of acting DCMs, which contributed to inconsistency and confusion
regarding internal direction within the mission and interactions with Washington. While
performing front office duties, embassy section heads could not provide consistent supervision
for their sections nor adequate mentoring to junior staff.

Mission Strategic and Resource Plan and Public Diplomacy

        Embassy Caracas follows its FY 2013 Mission Strategic and Resource Plan (MSRP),
which establishes three goals with appropriate performance indicators. The first priority is to
preserve and strengthen democracy in a country that anticipates a presidential election in October
2012. Venezuelan Government actions have weakened democratic institutions by enhancing
executive branch control over other government branches, threatening independent media, and
harassing leading political and media figures. The second is to strengthen direct relationships
with the Venezuelan people, especially youth. The third is to promote U.S. prosperity through
strengthening commercial relations, especially in the energy sector.

         The COM and DCM have embraced these objectives and are further refining them to
reflect the current political context. Informally, the DCM has introduced an additional goal—
protecting U.S. borders and citizens through consular, security, and law enforcement work—to
ensure that all elements of the mission play a direct role in MSRP goals. The DCM references all
four goals in her introductory meetings with new embassy personnel and in her ongoing
oversight of key mission elements regarding MSRP goal assessment. The DCM is also reviewing
the public diplomacy program with a view to retuning it to better match MSRP goals.


                                          3
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

              Informal Recommendation 1: Embassy Caracas should revise its FY 2013 Mission
              Strategic and Resource Plan to include a goal to protect U.S. borders and citizens through
              consular, security, and law enforcement work.

          The U.S. Department of Commerce is closing its commercial office in Caracas. The U.S.
    Department of Agriculture has cut back funding of its operation and is not expected to replace its
    Animal and Plant Health Inspection Service inspector. These two developments undermine the
    embassy’s ability to advance its MSRP goal to support U.S. commercial activities.

    Recommendation 1: Embassy Caracas should implement a strategy to mitigate the impact of
    the closure of the U.S. Department of Commerce’s office in Caracas so that the embassy can
    continue to support commercial activities in Venezuela. (Action: Embassy Caracas)

    Security and Mission Preparedness

            Embassy Caracas faces a combination of threats, including critical crime and high
    political violence. Appropriately, the front office has made personnel and residential security a
    top priority. The inspection confirmed that chancery and residential security is effective. (b)
    (b) (5)                                                                                     (5)




(b) (5)




    Official Visas and Washington Support

             Bilateral tensions and bureaucratic delays have constrained issuance of official visas to
    U.S. personnel traveling to Caracas. A host of routine visits from Department bureaus and
    cabinet agencies have been delayed or cancelled, affecting operational and administrative
    activities. (b) (5)
                                                                   High-level visits appropriately
    receive requisite visa priority in consultation between the embassy and the Department.

    Recommendation 2: Embassy Caracas, in coordination with the Bureau of Overseas Buildings
    Operations and the Bureau of Western Hemisphere Affairs, should explore the possibility of
    using embassy personnel or qualified contractors to perform routine inspections, repairs, or
    upgrades normally carried out by visiting U.S. personnel and, if feasible, implement a plan to do
    so. (Action: Embassy Caracas, in coordination with OBO and WHA)
                                                 4
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Entry-Level Officer Program

        The mission’s ELO program drifted in 2010 and the first half of 2011 as a result of
uneven front office attention. The DCM revitalized the ELO program and added new structure to
it—both welcomed by the ELO community. In all Department sections, but especially the
consular section, there is a preponderance of first-tour ELOs. In an environment where surging
workload and local government hostility combine to fundamentally challenge the mission,
recruiting more experienced ELOs would make a difference.

Recommendation 3: The Bureau of Human Resources should assign more second-tour, entry-
level officers to Embassy Caracas whenever possible, starting in the current assignment cycle.
(Action: DGHR)

Equal Employment Opportunity Program

        Prior to the inspection, there was no active EEO program in the embassy. Although the
embassy has an EEO bulletin board near the cafeteria that contains generic information, it does
not display the EEO counselor’s name or contact information. The counselor assumed his duties
in early September 2011 but has not received training required by 3 FAM 1514.1 c.

       Informal Recommendation 2: Embassy Caracas should provide training for the Equal
       Employment Opportunity counselor at the next available opportunity.
       (b) (5)                                    According to Foreign Affairs Manual
regulation 3 FAM 1514.2 a., embassies with more than 50 employees are strongly encouraged to
appoint a second EEO counselor, which would also provide continuity during transfers and
absences from post.

       Informal Recommendation 3: Embassy Caracas should appoint and train a second
       Equal Employment Opportunity counselor.

        A review of management notices in 2011 found none supporting EEO or publicly
identifying the EEO counselor as required by 3 FAM 1514.2 a.

       Informal Recommendation 4: Embassy Caracas should issue a management notice from
       the chief of mission emphasizing Equal Employment Opportunity principles and
       identifying the counselors.

       In addition, the embassy has neither a Federal Women’s Program coordinator, as required
by 3 FAM 1514.2 b., nor a Foreign Service national EEO liaison, as encouraged by 3 FAM
1514.2 d.

       Informal Recommendation 5: Embassy Caracas should appoint a Federal Women’s
       Program coordinator.

       Informal Recommendation 6: Embassy Caracas should appoint an Equal Employment
       Opportunity liaison to the Foreign Service national employees in the mission.
                                          5
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


    Policy and Program Implementation
    Political and Economic Sections

            Cooperation and information sharing is a strength of the political and economic sections,
    which are headed by strong and competent counselors. Between July 2010 and October 2011, the
    rotating DCM system placed a heavy burden on the counselors, and the stress filtered down to
    every level of the sections. Because of absences and vacancies, the economic counselor at times
    simultaneously served as acting DCM, economic counselor, acting political counselor, and
    oversaw the Foreign Commercial Service and the Foreign Agricultural Service.

            The counselors had little time to mentor the large cadre of ELOs on writing or editing
    cables, and political and economic reporting suffered as a result. Some cables, particularly longer
    analytical pieces, were stalled for editing and clearance until the information was no longer
    timely. Some were never sent. The result was demoralizing for entry- and mid-level drafters. The
    OIG team advised both counselors on ways to train their staff and on the need to move cables
    along more promptly.

            As noted in the Executive Direction section, the front office is committed to the
    embassy’s MSRP goals. However, few political and economic ELOs report having read the
    MSRP. Discussions with section heads suggest that the MSRP is viewed as less relevant to their
    ongoing reporting and is given little emphasis. They indicate that the plan cannot anticipate
    reporting on the erratic Chavez government and that opportunities to influence the Venezuelan
    Government are so limited that some MSRP targets are unrealistic. The front office is in the
    process of reviewing MSRP goals to ensure that they are appropriate in the current Venezuelan
    environment.
(b) (5)




    Political Section

            The political section is staffed primarily with ELOs. The mid-level deputy position has
    been largely vacant for the past year. The counselor has been obliged to devote an inordinate
    amount of time to staff this position, which has detracted from her ability to exercise oversight of
    the section.

           With the front office fully staffed and no longer requiring her to serve as acting DCM, the
    counselor is able to focus on mentoring officers in the section. Work requirements are clearly

                                               6
                                  SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      defined for all members of the section. Daily meetings and informal conversations facilitate
      communication among members of the section.

               The political section has an ambitious travel plan. Political officers, usually accompanied
      by officers from other sections, routinely travel throughout the country to keep abreast of
      realities on the ground outside the capital.

              One overstretched LE staff political assistant now serves the political section, DCM, and
      chargé; however, having a local employee who is knowledgeable about the society and politics is
      particularly important when the host government is hostile. The political section has requested a
      second LE staff political assistant to help the mission implement a countrywide plan for travel
      related to the 2012 election. A key component of this plan is the complicated task of identifying
      and arranging meetings with new contacts who are willing to talk to embassy representatives.
      Other responsibilities include processing visa referrals and conducting research for required
      reports. The OIG team agrees that the workload justifies a second LE staff member as requested
      in the FY 2012 and 2013 MSRPs.

      Recommendation 4: Embassy Caracas, in coordination with the Bureau of Western
      Hemisphere Affairs, should hire a second locally employed political assistant. (Action: Embassy
      Caracas, in coordination with WHA)
(b) (5)




      Economic Section

            The economic counselor served previously in the economic section and has institutional
      knowledge that is an asset to the embassy.

              In the past 4 years, Venezuela’s inflation rate was among the highest in the world, and
      economists predict that the country is on track for an almost 30 percent inflation rate by the end
      of 2011. At 5 cents a gallon, heavily subsidized gasoline is a drain on the treasury; however,
      slashing the subsidy would create an antigovernment backlash. There are more than $10 billion
      in U.S. exports to Venezuela, and half of Venezuela’s crude oil is exported to the United States.
      Despite the dismal economic realities in Venezuela, the embassy continues to promote U.S.
      exports.

              Washington readers are interested in a range of topics concerning Chavez’s heterodox
      plans for the Venezuelan economy. U.S. Government agencies desire more reporting outside the
      petroleum sector to better understand issues and stresses elsewhere in the government-directed
      economy. The economic section has begun to organize its reporting with written guidelines for
      officers and to track the status of cables.

                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The economic section will soon assume the commercial portfolio. Economic officers
attend Venezuelan-American Chamber of Commerce meetings, assist with Gold Key services for
visiting U.S. business representatives, and maintain contact with expropriated American
companies. The impending departure of the Foreign Commercial Service will increase the need
to engage American businesses, U.S. exporters seeking markets, and Venezuelans hoping to
invest in the United States.

Foreign Commercial Service

        The Caracas Foreign Commercial Service office plans to close by the end of 2011. After
the commercial attaché departed in June 2010, the commercial attaché in Quito, Ecuador,
assumed supervision of the office and visited Caracas once a month. Now the office in Quito is
also scheduled to close. The nine-person office in Caracas has dwindled to three LE staff
members. The Foreign Commercial Service in Quito has encouraged the remaining employees to
seek work elsewhere. The embassy does not have a clear plan for closing the office, including
procedures for releasing personnel or disposing of furnishings.

          Informal Recommendation 7: Embassy Caracas should request from the Foreign
          Commercial Service a plan for closing its office.

Law Enforcement

        The law enforcement working group includes the political, public diplomacy, and
consular sections; regional security office; Drug Enforcement Administration; Department of
Homeland Security/Immigration and Customs Enforcement; narcotics affairs section; and the
legal attaché. The group promotes good cooperation within the law enforcement community at
Embassy Caracas.

       Since 2005, U.S.-Venezuelan bilateral counternarcotics cooperation has been limited to
deportations of drug fugitives, informal information exchanges, and maritime interdiction. The
growth of Mexican drug cartels has increased drug trafficking in and through Venezuela.( b)
(b) (5)                                                                                (5)




Narcotics Affairs Section

        In 2007, the Bureau of International Narcotics and Law Enforcement ceased funding
new training programs in Venezuela. (b) (5)




                                          8
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Coordination with the Consular Section

        The Department of Homeland Security’s visa security unit and the assistant regional
security officer for investigations handle law enforcement issues related to consular work. Their
functions are covered in the Consular Affairs section of this report.

Public Diplomacy

        Working in an often challenging public affairs environment, the PAS promotes freedom
of the press and presents a positive image of the United States. (b) (5)

                                                                             The PAS manages
these varied programs well.

        The PAS is expanding its digital media presence by using Facebook, Twitter, and
YouTube to engage young Venezuelans. The embassy supports press freedom by sending
journalists on International Visitor Program and professional training visits to the United States.

Strategic Planning

       The FY 2013 MSRP includes a separate public diplomacy goal as required by the Under
Secretary of Public Diplomacy and Public Affairs. (b) (5)

        The public affairs, cultural affairs, and information officers all have a good grasp of their
target audiences and measure the success of their programs through automated sampling
programs and ad hoc reporting. They do not, however, have a written plan for achieving MSRP
goals, as recommended in the Strategic Framework for Public Diplomacy, and are therefore
unable to focus on implementation tactics. A plan would also serve as a guide to the four new
officers arriving in 2013, when 80 percent of PAS officers transfer.

       Informal Recommendation 8: Embassy Caracas should institute a written public
       diplomacy implementation plan.

       The PAS works closely with media outlets that are receptive to the mission’s freedom-of-
the-press programming and are willing to cover the embassy’s activities. The PAS also analyzes
the complex Venezuelan media environment. It lacks, however, a formal media engagement plan
as recommended in the Department’s Strategic Framework for Public Diplomacy.

       Informal Recommendation 9: Embassy Caracas should implement a media engagement
       plan.

       Alumni of U.S. Government-supported exchange programs are often articulate
proponents of the U.S. values to which they have had first-hand exposure. For this reason, the
Department has encouraged missions to develop alumni outreach plans. Although alumni of
Embassy Caracas programs participate in embassy-sponsored events, the PAS does not have a
systematic plan to increase the level and quality of engagement. A formal alumni engagement

                                            9
                               SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

          plan would allow PAS officers to keep track of alumni and to encourage them not only to
          participate in embassy-sponsored events but also to organize events themselves.

                 Informal Recommendation 10: Embassy Caracas should implement an alumni
                 engagement plan.

          Section Management

                  The public affairs officer has repositioned key LE staff to work on sports diplomacy and
          English-teaching programs. With the planned addition of an educational advising coordinator,
          the PAS will be adequately staffed. Because entering the embassy is extremely difficult for
          Information Resource Center users, the public affairs officer is attempting to move toward a
          Web-based, virtual center, which would make the office management specialist in the press
          office more responsible for organizing these outreach activities. The cultural assistant, who also
          handles sports diplomacy, would then have help working on outreach. Although the PAS has
          begun drafting a position description that includes the new duties of the press section’s office
          management specialist, it has not yet submitted the revised document to the human resources
          office for approval.

                 Informal Recommendation 11: Embassy Caracas should approve the new position
                 description detailing increased Information Resource Center responsibilities for the
                 current office management specialist in the press office.
(b) (5)




                                                    10
                                        SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

(b) (5)




          Digital Media

                  The PAS runs the embassy Web page, Facebook, YouTube, and Twitter accounts, all of
          which comply with relevant FAM and Foreign Affairs Handbook (FAH) regulations. The PAS
          uses Facebook to announce youth-focused events. Commercial “Top Fan” software tracks major
          Facebook "likes," and each month the PAS awards a prize to the person who has visited the
          embassy’s page most often. The PAS resends selected material via Twitter approximately three
          times per day. The embassy Web site receives about 330,000 “hits” each month. The PAS
          currently has 7,500 fans on Facebook and 15,000 followers on Twitter; it has also placed 91
          videos on YouTube, which were watched 23,910 times during the first 6 months of 2011.

           Management of Public Diplomacy Grants

                  The PAS provides grants to Venezuelan binational centers, nongovernmental
          organizations, and individuals to carry out activities in support of its MSRP public diplomacy
          objectives. In FY 2011, the PAS awarded 120 grants worth a total of $1 million. Unused funds
          are deobligated promptly, and all PAS officers have grants warrants. The current public affairs
          officer has started to document grants files better and has ensured that the PAS administrative
          assistant received grants administration training. In FY 2011, the PAS did not receive final
          reports from grant recipients in 41 of 52 grants, as required by the Federal Assistance Policy
          Manual (Section 5.2, Final Reports) and as indicated clearly in the award document signed by
          each grant recipient. As a result, the PAS does not know the final results of all grant activities.

          Recommendation 5: Embassy Caracas should implement procedures so that all public
          diplomacy grant recipients submit a final report of their performance. (Action: Embassy Caracas)

          Contact Database

                  Embassy Caracas does not have a central database for missionwide contacts. For large
          events, the protocol assistant patches together guest lists from different sections and distributes
          the guest list from the previous year’s event to embassy officers and LE staff for additions and
                                                    11
                                        SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

subtractions. She then incorporates the changes into an Outlook document to create a master
guest list. The process would be less time consuming and more reliable if the embassy had a
centralized database, which would also allow employees to create their own guest lists for
smaller events and targeted mailing lists.

          Informal Recommendation 12: Embassy Caracas should create and use a central contact
          database.

Consular Affairs

       With some 250,000 applicants, Embassy Caracas is one of the top 10 nonimmigrant visa
(NIV) processing posts in the world. In the past 5 years NIV demand has grown by 77 percent,
(b) (5)
      According to the U.S. Department of Commerce, Venezuelan visitors spend
approximately $2.5 billion in the United States each year, mostly in Florida. By not meeting visa
demand, potential tourism export earnings (and U.S jobs) are being lost.
     (b) (5)




          (b) (5)


                       The front office has added a welcome informal fourth goal to the FY
2013 MSRP that includes consular work.

Consular Intake Operations and Exterior Space

        In a country where a hostile government limits the embassy’s access to its people, more
than a quarter million Venezuelans come to the embassy for a variety of consular services each
year. (b) (5)



          The Consular Management Handbook establishes the importance of well-managed
consular space in 7 FAH-1 H-280. A garden between the consular security screening building
and the consular entrance to the chancery could be integrated into the waiting space, eliminating
one security check. Traffic flow could be more logical and simplified, and public diplomacy
outreach could also be incorporated into waiting areas. The embassy is missing an opportunity to
show the best face of America to these applicants. Given the broad range of management issues
confronting the consular section in reorganizing the visa applicant intake processing, the OIG
team believes a visit from a Consular Management Assessment Team could be useful.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 6: Embassy Caracas should implement a comprehensive but simplified visa
applicant intake process, requesting a visit from a Consular Management Assistance Team to
assist in the effort. (Action: Embassy Caracas)

        Pathways for entering and exiting the section crisscross, confusing applicants. Yet there
are few signs to direct clients, resulting in confusion about where to go next without a contract
greeter or embassy guard to direct them. In 7 FAH-1 H-263.6, the Consular Management
Handbook establishes the value of good signage.

       Informal Recommendation 13: Embassy Caracas should install clear signage to direct
       applicants through the entry and exit processes.

        One factor contributing to the confusion in intake is that some applicants arrive hours
before their appointment times. Although the embassy has instructed greeters to admit
individuals only at their appointment times, it is not enforcing this policy, resulting in large
crowds that strain the intake facility.

       Informal Recommendation 14: Embassy Caracas should enforce its policy that consular
       applicants be admitted only at the time of their appointments.

        When clients are not on the appointment list or when there is a serious biographic data
discrepancy, the contract greeters take the person out of line and refer the case to a senior LE
staff member in the consular section. (b) (5)                       this practice could give the
appearance of special treatment if LE staff members make decisions to allow exceptional entry
into the section.

       Informal Recommendation 15: Embassy Caracas should implement a policy to grant
       exceptional entry of applicants into the consular section only with an American officer’s
       written approval.
       (b) (5)                                                                     The consul
general and facilities manager are implementing a plan to relocate the applicant line to an area
under an awning, along the back border of the parking lot. The OIG team supports this initiative.
     (b) (5)




        The consular security building at the entrance to the compound provides space for
fingerprinting and data entry through seven teller windows. LE staff assigned there complains of
poor air quality, poor maintenance, and increased incidence of illness. All embassy employees
are entitled to a clean, healthy work environment. More frequent maintenance and cleaning of
the workspace and attached toilet facilities will improve the environment.

       Informal Recommendation 17: Embassy Caracas should maintain the consular security
       entrance building workspace to the same standard as other embassy offices.

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American Citizens Services

        The American citizens services unit occupies a ground floor suite in the chancery with
good workspace and a spacious waiting area. The OIG team observed experienced, professional
staff providing excellent service to the public. The American citizen clientele include dual
nationals but fewer business expatriates and tourists than 5 years ago. In FY 2010, there were
36,500 registered Americans in the consular district, and the embassy processed 2,000 passport
applications and 111 birth reports. First-time citizenship claims and inquiries about regaining lost
citizenship make up an increasingly large share of the workload.

Prison Visits

        At the time of the inspection, 15 American prisoners were incarcerated in 8 prisons
around the country. Venezuelan authorities often have little control over the prisons, and dozens
of inmates have died in recent uprisings. In the San Antonio Prison (which has 2 American
prisoners), the prison kingpin had more than 150 firearms under his control. Armed inmates
seized more than 50 guards and other prison workers in the Tocuyito lockup in October 2011.
Consular officers report that in some prisons they have had direct contact with armed prisoners
during their visits. The consular chief and American citizens services officers have coordinated
closely with other embassies and have lodged appropriate protests with the Venezuelan
Government about prison conditions, requesting the protection of American citizens in prisons in
Venezuela. Although 7 FAM 422.1-1 requires personal visits, in order to ensure appropriate
protection for detained Americans, 1 FAM 261.3 b. (1) states that the embassy must protect all
U.S. Government personnel on official duty abroad. Working with the Bureau of Consular
Affairs, the embassy has been developing procedures to ensure the safety of the consular staff
performing consular prison visits. The OIG team applauds these efforts.

Nonimmigrant Visas

        A diligent but overextended visa chief manages the unit, supported by a talented deputy.
LE staff expressed concerns about the lack of attention to customer service and to factorylike
working conditions in the visa unit. The visa chief and deputy have recently introduced a
thorough orientation and training program for incoming ELOs, all of whom are first-tour
officers. Rebalancing the unit with the addition of a few second-tour officers would add depth,
especially as both the visa chief and deputy are rotating out next summer. The orientation and
training initiative is excellent and has been welcomed by the ELOs.

        The OIG team observed adjudicating officers interviewing from 8:00 a.m. until late
afternoon and received reports that some were at their windows after close of business. All
officers complained of, and the OIG inspectors observed, continual systems problems that caused
frequent screen freezes and slow responses. These interruptions reduced the number of
interviews per day per officer and also increased stress for all NIV line officers. Line officers and
supervisors indicated that this problem began in June with the installation of the new server and
had become worse despite attempts to resolve it.

        As this inspection ends, consular supervisors and the embassy information systems
officer, in coordination with the Bureau of Information Resource Management and the Bureau of
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Consular Affairs computer systems division technical support, have concluded that increased
bandwidth should restore functionality. The embassy awaits authorization from the Bureau of
Information Resource Management for this bandwidth increase. The OIG team underscores the
urgency of solving this systems problem, an issue that is also addressed in the Information
Management section of this report.

Recommendation 7: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, the Bureau of Consular Affairs, and Embassy
Caracas, should provide urgent and continued technical expertise, including a bandwidth
increase, to resolve the systems problems in the consular section. (Action: IRM, in coordination
with WHA, CA, and Embassy Caracas)

         The visa unit workspace is cramped. Although recent renovations improved space
utilization, several officers do not have desks and have been using borrowed space on the third
floor. A large conference room adjacent to the visa unit is used occasionally for meetings and
training. The Consular Management Handbook (7 FAH-1 H-280) provides guidance for
managing space. Converting the conference room to officer work space would provide all
officers with desk space inside their assigned work area. The consular section can use conference
space elsewhere in the embassy for meetings and training.

Recommendation 8: Embassy Caracas, in coordination with the Bureau of Overseas Buildings
Operations, should incorporate the consular conference room into the visa unit work space.
(Action: Embassy Caracas, in coordination with OBO)

        The visa unit LE staff is organized into teams with a complex rotational system. Four
unequal-sized teams report to team leaders, who report to two LE staff supervisors, who report in
turn to the visa chief. The team organization institutionalizes a structure that separates LE staff
and line officers. The visa chief and deputy have plans to restructure the teams to provide closer
oversight of LE staff by American officers and to serve as a professional development
opportunity for ELOs.

       Informal Recommendation 18: Embassy Caracas should implement its plan to
       restructure the nonimmigrant visa unit teams to integrate entry-level officers into locally
       employed staff supervision.

        Visa adjudicating officers do not need to verify fingerprints taken by cleared American
citizen employees. At present, only one cleared American captures fingerprints; the other six
finger-printers are LE staff members. The section’s staffing pattern lists four vacant consular
assistant and three vacant visa assistant positions. If these positions were filled by locally hired
American citizens or embassy family members and given appropriate security clearances, this
important function could reduce or eliminate the need for fingerprint verification and save
significant time.

       Informal Recommendation 19: Embassy Caracas should advertise the vacant consular
       assistant and visa assistant positions and fill them with cleared Americans.


                                           15
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        There are a number of Foreign Service officers at post with recent consular experience
who either have or could obtain consular commissions. To reduce the visa backlog, all officers
with consular commissions could adjudicate visas a few hours a week. This would help reduce
the backlog of appointments by using resources already in Caracas, provide a morale boost for
the overworked ELOs in the consular section, and assist in integrating the consular section with
the rest of the embassy.

Recommendation 9: Embassy Caracas should enlist all Foreign Service officers from all offices
in the mission who have or could obtain consular titles and have recent visa adjudicating
experience to assist in processing visas. (Action: Embassy Caracas)

       The cumulative effect of an ineffective appointment system, convoluted entry process,
and crushing backlog, combined with the inevitable staffing gaps and computer systems
problems, means that consular managers are constantly struggling with resource (b) (5)
challenges.

       Informal Recommendation 20: Embassy Caracas should send cables to the Bureau of
       Consular Affairs that explain its efforts to meet the visa workload challenge and request
       urgent support and specific resources to reduce the backlog.

        The visa unit has started a pilot project to reduce interviews for individuals applying to
renew NIVs by using the fingerprint/data-entry point as a prescreening site. Having people
appear in person when they are eligible for an interview waiver adds to the crush of other visa
applicants. The Department provided guidance regarding the waiver of interview requirements in
two telegrams in 2008: STATE 005243 and STATE 004990. Using a drop box or courier for
these cases would reduce visa interviews by 10 percent.

Recommendation 10: Embassy Caracas should implement a policy to process all qualified
nonimmigrant visa application renewals by drop box. (Action: Embassy Caracas)

Nonimmigrant Visa Referral System

        The extended NIV appointment wait time creates a large volume of referrals, and the
recent history of malfeasance shows clear potential for misuse. In FY 2011, embassy officers
submitted 490 NIV referrals. The majority of the referrals were adjudicated appropriately by the
visa chief or consul general. However, 37 cases were adjudicated by 13 different ELOs. In
addition, 59 referrals did not have associated documents in the NIV system. The OIG team saw
an email with an informal visa request from a senior embassy officer.

       In the current environment, the embassy should be more careful in implementing this
important program. In December 2010, the assistant regional security officer for investigations
demonstrated malfeasance involving the falsification of embassy referral recommendations (b) (6)
                                                      Subsequently, consular staff trained all
embassy employees on the referral program. Strict adherence to all 9 FAM Appendix K
procedures will facilitate efficient processing and the maintenance of appropriate management
controls.

                                         16
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      Recommendation 11: Embassy Caracas should implement procedures for processing embassy
      nonimmigrant visa referrals that comply with Department of State guidelines. (Action: Embassy
      Caracas)
(b) (5)




      Immigrant Visa Unit

             The immigrant visa unit has a steady workload of approximately 2,000 applicants
      annually. Two experienced LE staff members provide continuity, and one ELO rotates in for 6
      months at a time. There is little involvement of or oversight by the visa chief, deputy, or consul
      general in the daily operations of the immigrant visa caseload.

             Informal Recommendation 21: Embassy Caracas should include oversight of the
             immigrant visa unit in the deputy visa chief’s work requirements statement.

      Fraud Prevention Unit

              The fraud prevention manager works primarily on NIV cases. A newly arrived fraud
      prevention manager is still establishing relations with local law enforcement entities.
      Collaboration with the assistant regional security officer for investigations is close, as they share
      an office suite. The unit works well with the Department of Homeland Security’s visa security
      unit and the Drug Enforcement Administration. The fraud prevention unit performed two
      validation studies in 2010, one for 2007 referrals and another for visas issued during the 2008–
      2009 period. Huge increases in visa demand indicate that factors may be changing rapidly.
      Regular visa validation studies are important for informing adjudicating officers of factors
      relevant to their decisions.

      Recommendation 12: Embassy Caracas should perform a visa validation study of business and
      tourist visa recipients in 2010. (Action: Embassy Caracas)

      Assistant Regional Security Officer for Investigations

              One assistant regional security officer for investigations has an office in the fraud
      prevention unit. He oversees one LE staff investigator and handles cases that may involve
      criminal activity. He receives good cooperation with working-level local law enforcement
      entities, resulting in 50 arrests and fewer fraudulent documents submitted with applications. His
      investigations into visa malfeasance led to the dismissal of three LE staff members in 2010. He
      worked closely with the fraud prevention unit to provide mandatory training for all embassy staff
      regarding malfeasance during the first half of 2011. Although he briefs all incoming consular
      officers, he does not participate in consular staff meetings, which reduces his opportunities to
      build relationships with consular staff.
                                                17
                                    SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

            Informal Recommendation 22: Embassy Caracas should implement a policy that the
            assistant regional security officer for investigations attend consular staff meetings.

     Department of Homeland Security Visa Security Unit

             Two Immigration and Customs Enforcement officers in the Department of Homeland
     Security’s visa security unit review all visa adjudications daily. They coordinate directly with the
     chief of the visa unit and provide briefings to incoming officers.
(b) (5)




     Maracaibo Consular Agency

             The consular agency in Maracaibo provides an important service to the dwindling
     American population of Venezuela’s second-largest city and serves as a key source of local
     knowledge for the embassy on regional politics. The agency is located in the U.S. binational
     center in Maracaibo, which is busy and secure. The agent attends the public only one morning a
     week in a small but functional room. The agent’s files and Department-issued safe are located in
     the agent’s private office, a mile from the agency. A review of accountability showed many
     discrepancies from required practices, some dating back a year. Supervisory visits to the consular
     agency have been irregular and informal, and the consular agent does not have up-to-date
     resources and information.

     Recommendation 13: Embassy Caracas should implement procedures to provide regular
     supervisory oversight to the consular agent in Maracaibo, using a checklist of vital consular
     management controls issues as a guide. (Action: Embassy Caracas)
            (b) (5)


                                                                                      The agent does
     not have access to   the Department’s email or intranet (b) (5)



            Informal Recommendation 23: Embassy Caracas should provide the consular agent in
            Maracaibo with access to updated copies of the Consular Agent Handbook and other
            consular information resources.




                                                 18
                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
                                                (b) (5)

                                                                                           Total
                   Agency                                                                 Funding
                                                                                          FY 2011
Department of State
 Diplomatic and Consular Programs                                                        $3,286,000
 International Cooperative Administrative and                                           $12,090,000
    Support Services
 Public Diplomacy                                                                        $2,539,000
 Diplomatic Security                                                                     $2,576,000
 Marine Security Guard Detachment                                                         $245,000
 Overseas Buildings Operations                                                           $4,663,000
 Representational Funding                                                                   $43,000
 Machine-Readable Visa Funding                                                            $266,000
Foreign Commercial Service                                                                $296,000
Foreign Agriculture Service                                                               $454,000
U.S. Agency for International Development                                                $5,000,000
            Department of Defense
    Defense Attaché Office                                                                $476,000
    Office of Defense Cooperation                                                        $1,006,000
    Tactical Analysis Team                                                                   $6,000
Department of Justice
    Drug Enforcement Administration                                                       $450,000
    Federal Bureau of Investigation                                                       $193,000
Department of Homeland Security                                                           $120,000
Animal, Plant, and Health Inspection Service                                                $74,000
Totals                                                                                  $33,783,000


Management Section

       Two operational priorities require the immediate attention of post management. One is to
increase computer bandwidth to facilitate consular work, and the second is to ensure that the
Department approves (b) (5)
                   Both are covered in more detail in subsequent sections of this report.

       Management services are incoherent and customer service is poor. Client feedback
unanimously points to frustration with lack of information and clarity from service providers,
from pre-arrival to post-departure. Management policies and notices do not contain clear
                                                19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

information on what the client should expect or where to go for help. Lines of responsibility and
authority are so blurred within management functions that no one is clearly accountable for any
given task. The management counselor has not clearly defined the responsibilities of each section
nor held individuals accountable for their performance.

        The management counselor has worked under severe constraints—long-term staffing
gaps in key positions, lack of support from Washington and regional centers due to visa
challenges, and lack of cooperation from the host government. It is clear to the OIG team,
however, that weak management section leadership has exacerbated the situation. In addition, the
management team lacks a strategic vision of how to improve services. (b)(5)(b)(6)



Recommendation 14: Embassy Caracas should implement a strategic plan to improve customer
service, including designating one clearly accountable employee for each administrative support
function. (Action: Embassy Caracas)

Recommendation 15: Embassy Caracas should designate one full-time position as customer
service representative and update the position description to reflect this responsibility. (Action:
Embassy Caracas)

        Management documentation, including the welcome cable and check-in and check-out
instructions, is out of date and unclear. For example, only 23 management policies are listed on
the embassy’s intranet site and all are out of date. Management policies and notices do not
include an information line for clients on what to expect, such as how long they should wait for
shipments. The notices list several points of contact for any given function. As a result, neither
clients nor supervisors can hold any individual accountable for his or her performance.

Recommendation 16: Embassy Caracas should update the welcome to post cable, check-in and
check-out instructions, management policies, and management notices and post them on the
embassy intranet Web site. (Action: Embassy Caracas)

        Because of difficulties obtaining Venezuelan visas, the Department has been unable to
provide sufficient U.S.-based support for management services. The lack of support visits has led
to delays and substandard service. Even though there is no expectation that the Department will
be able to resolve the current visa difficulties soon, the management section has not explored
other ways to obtain requisite support.

Recommendation 17: Embassy Caracas should implement a plan to prioritize its need for visa
support and explore alternatives such as offshore support via email, digital video conferencing,
and telephone conference calls. (Action: Embassy Caracas)
       (b)(5)(b)(6)




                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 18: (b) (5)



        The required Designation of Responsibilities document available on the Internet is dated
September 2004. Because of staffing gaps, maintaining routine documents has been neglected.
This lack of clarity can be frustrating, particularly to inexperienced employees.

       Informal Recommendation 24: Embassy Caracas should update its Designation of
       Responsibilities document and implement procedures to keep it up to date and easily
       accessible to mission employees.

        Unqualified employees are translating management notices into Spanish, and there is no
quality control. As a result, information in the Spanish versions of notices is substantively
different from that in the English ones.

       Informal Recommendation 25: Embassy Caracas should implement a policy that only
       qualified employees translate management notices.

International Cooperative Administrative Support Services

        The International Cooperative Administrative Support Services (ICASS) chair is the legal
attaché. All ICASS agency agreements are current or in the process of being updated.

        The scores from the ICASS customer satisfaction questionnaires decreased from 3.96 in
2010 to 3.35 in 2011. Health, computer, and security services received the highest scores;
residential maintenance, customs and shipping, and vouchering received much lower scores.
Complaints from customers concerned delays in receipt of household effects, substandard
residential maintenance, slow travel voucher processing, and delays in obtaining Venezuelan
visas renewals and accreditation. The OIG workplace and quality-of-life questionnaire contained
similar assessments.

      Embassy Caracas does not use uniform service standards. This reflects the absence of a
customer focus and results in poor accountability to clients.

Recommendation 19: Embassy Caracas should implement uniform service standards with clear
deadlines for service delivery and have the International Cooperative Administrative Support
Services council approve them. (Action: Embassy Caracas)

        The embassy does not charge agencies for ICASS-related services for official temporary
duty employees. According to 6 FAH-5 H-360, each embassy is required to publish a written
policy that explains what services can be provided to temporary visitors and the anticipated
costs. Each ICASS council must apply the policy equally to all visitors. By not fully recovering
costs from other agencies for temporary duty employees, ICASS is paying more than its share of
these costs.


                                         21
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

      Recommendation 20: Embassy Caracas should update the International Cooperative
      Administrative Support Services temporary duty policy and include procedures for charging
      temporary duty visitors for these services. (Action: Embassy Caracas)
(b) (5)




      Housing

             Because of poor planning, most employees do not move into their permanent quarters
      when they arrive in Caracas but occupy temporary quarters for 1 to 4 months. In addition to the
      inconvenience to employees of living in a partially furnished apartment or hotel, the embassy
      must use local funds to pay for temporary quarters expenses.

      Recommendation 21: Embassy Caracas should implement a plan to better manage its housing
      pool to minimize the use of temporary quarters for arriving employees. (Action: Embassy
      Caracas)

              When employees move into permanent housing, they sometimes find their quarters dirty
      and in need of repair due to the general services office’s inadequate oversight of the make-ready
      contractor’s work. Per uniform service standards, clients should move into residences that are
      clean and in good repair.

      Recommendation 22: Embassy Caracas should establish a rigorous program to oversee make-
      ready contractors and owners so that embassy housing is clean and in good repair when
      employees move in. (Action: Embassy Caracas)

               Response to maintenance emergencies is sometimes delayed. Per 15 FAM 632.1-2 and
      article 7C of the standard model lease, landlords are responsible for all major structural repair
      and maintenance on short-term leased properties; however, there is an option for the embassy to
      make repairs and deduct the cost from the rent. ( b) (5)


      Recommendation 23: Embassy Caracas should implement a comprehensive plan for the timely
      response to maintenance emergencies, using embassy resources when necessary. (Action:
      Embassy Caracas)

              There is inadequate oversight of routine maintenance on short-term leased residences.
      The housing office lacks maintenance expertise because the management counselor rotates an
      expert employee between the housing and facilities management units as needed. The result is
      sporadic oversight of repair work on short-term leased residences and prolonged exposure of
      residents to substandard living conditions.


                                               22
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Embassy Caracas should implement a comprehensive short-term lease
routine maintenance and repair plan that includes maintenance of sufficient facilities
management expertise in the housing office to provide adequate landlord liaison and contractor
oversight. (Action: Embassy Caracas)

Customs and Shipping

        Most arriving and departing employees do not receive unaccompanied baggage and
household effects shipments promptly either in Caracas or at their onward post. In addition, they
do not receive adequate information to allow them to plan accordingly. As a result, officers
waste time trying to obtain information about their shipments and sometimes need to purchase
new items to replace those delayed in transit.

Recommendation 25: Embassy Caracas should make timely receipt of shipments a mission
priority and provide accurate information to employees regarding the status of their effects.
(Action: Embassy Caracas)

         Customs and shipping and motor pool staff spend many hours delivering documents to
various government and transportation offices. The contract with the courier service that
performed this function in the past was not renewed because of unreliable service. The absence
of a reliable courier service has had a negative impact on customs and shipping and motor pool
productivity.

Recommendation 26: Embassy Caracas should find and use a reliable courier service to deliver
routine documentation. (Action: Embassy Caracas)

Real Property

       The embassy owns the chancery, the COM’s residence, the DCM’s residence, and three
apartments. A Marine security guard quarters is under construction on the chancery grounds. The
embassy plans to purchase a large warehouse that it currently leases.

       Use of chancery space is not optimal, with both overcrowded and underused areas in the
chancery building. This problem will grow worse with the departure of the Foreign Commercial
Service. Better use of existing space in both unclassified and controlled access areas would
enhance (b) (5)      productivity in overcrowded offices. A space plan was created in 2004 but is
outdated.

Recommendation 27: Embassy Caracas, in coordination with the Bureau of Overseas Buildings
Operations, should update and implement its comprehensive space plan for the chancery.
(Action: Embassy Caracas, in coordination with OBO)

        The leased warehouse that the embassy plans to purchase is underused. Meanwhile,
storage areas on the chancery grounds have grown because the staff has no time to organize
space. Some chancery storage and work spaces, such as the mechanic shop, are crowded. The
motor pool functions spill into a cafeteria area. There may be functions currently housed on the

                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

chancery grounds that could move wholly or in part to the warehouse, such as storage for
facilities management and motor pool.

       Informal Recommendation 26: Embassy Caracas should implement a comprehensive
       plan to make better use of warehouse space.

Property Management

        Property staff does not keep good records of residential inventories. Residents do not
consistently sign residential inventories, and when they do, the property management office does
not record their changes. Property staffing levels are relatively low and the seasonal workload is
heavy, particularly during the summer turnover season.

        Per 14 FAM 416.3 g., employees must sign residential inventories. Without an agreed
inventory, it is impossible to maintain accountability of government-owned furniture,
furnishings, and appliances. Furthermore, property staff is not ensuring that the residential
inventory is in the residence when the new resident arrives and that the employee returns the
inventory within 30 days of move-in. Property staff is also not updating the inventories in a
timely manner and returning them to the employee.

       Informal Recommendation 27: Embassy Caracas should implement Department of State
       regulations for maintaining residential inventories.

Facilities Management

       The facilities management staff maintains the government-owned chancery, the COM’s
residence, the DCM’s residence, and the three apartments. The section is managed by an
experienced and competent facilities manager.

Safety, Health, and Environmental Management

      The embassy lacks a comprehensive safety and health program. Per 15 FAM 932 and 15
FAM 933–935, a safety, health, and environmental management standing committee, with
semiannual meetings, should be established at every Foreign Service post with more than 25
employees (including LE staff and personal services contractors). Without a consistent
commitment to safety, employees are at risk of injury.

Recommendation 28: Embassy Caracas should institute a formal safety and health standing
committee. (Action: Embassy Caracas)

        Facilities management staff is at risk of injury due to lack of appropriate tools and
equipment and lack of safety features on existing equipment. These deficiencies are enumerated
in the 2009 Embassy Caracas inspection report on Safety, Health, and Environmental
Management, Tables A.1 # 15.4 and A.1 16.1. Because of competing priorities, Embassy
Caracas has not rectified the issues identified in the report, and as a result, embassy employees
often do not have the necessary tools and equipment to do their jobs safely.

                                         24
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 28: Embassy Caracas should provide facilities management
          staff with appropriate and safe tools and equipment.

Motor Pool

        The facilities manager has served as acting motor pool supervisor for several months due
to prolonged staffing gaps. Motor pool drivers have received driver safety training. The embassy
is implementing a comprehensive seat-belt use policy.

        Vehicle dispatch is conducted by cell phone, as only 7 out of 74 vehicles have two-way
radios. Because of past radio repeater problems, now resolved, the former American supervisor
removed two-way radios from motor pool vehicles. Using radios enables all drivers to
simultaneously hear the dispatcher and one another. Radios are key to efficient motor pool
operations, cut down on distracted driving by overuse of cell phones, and are a critical tool if the
cell phone network goes down.

Recommendation 29: Embassy Caracas should implement a plan to dispatch motor pool
vehicles by radio. (Action: Embassy Caracas)

        Some drivers wear earphones for hands-free use of cell phones, and some do not. Some
respond to cell phones when driving, whereas others do not. The lack of a written policy on the
use of cell phones while driving causes confusion among drivers and clients and poses a
potential driving hazard.

Recommendation 30: Embassy Caracas should implement clear guidelines for motor pool
drivers on the use of cell phones while driving. (Action: Embassy Caracas)

         Because of the press of daily business and lack of oversight, drivers do not consistently
fill out the preventive maintenance checklist on the reverse side of the daily vehicle use record
form (OF-108).

Recommendation 31: Embassy Caracas should train drivers on a systematic, daily preventive
maintenance routine, using the daily vehicle use form, and spot-check preventive maintenance
regularly. (Action: Embassy Caracas)
          (b) (5)




Recommendation 32: (b) (5)



          Employees without personal vehicles and without access to reliable transportation (b)
(b) (5)                                                                                      (5)

                    Three employees have been hit by cars while making this journey.
                                             25
                                 SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

Recommendation 33: Embassy Caracas should implement a policy on providing embassy
transport to employees whose official duties require them to work during hours when reliable
public transportation is not available. (Action: Embassy Caracas)

Human Resources

        The human resources officer has been at post for more than 2 years, 10 months of which
have been spent as acting financial management officer. The LE staff consists of a human
resources specialist, a deputy, four assistants, two clerks, and an eligible family member
assistant. All but two LE staff members were hired in the past year. The embassy has 17 eligible
family member positions.

Employee Work Requirements Statements and Evaluation Reports

        American employee evaluations and work requirements statements are maintained
electronically. However, the human resources officer was unable to provide the status of work
requirements submissions for American officers, and the OIG team could not determine how
many were delinquent. Per 3 FAH-1 H-2811.2, post management must ensure that work
requirements statements, position descriptions, and evaluations are completed on time. Two
eligible family member employee evaluations are past due. By monitoring the current status of
work requirements for each employee, post management will be aware of supervisors who are
delinquent and ensure that the work requirements are completed early on in the rating cycle.

Recommendation 34: Embassy Caracas should provide the deputy chief of mission with a
status report on work requirements submissions to facilitate the prompt completion of the two
outstanding performance evaluations. (Action: Embassy Caracas)

Voluntary Services

       The embassy has accepted volunteer work and, on occasion, has asked eligible family
members to perform official tasks without compensation. Eligible family members routinely
begin work prior to being officially cleared and processed for employment. The Antideficiency
Act1 prohibits the acceptance of voluntary services and generally allows uncompensated services
only under narrowly defined conditions, such as the 5 U.S.C. § 3111 exception authorizing
acceptance of voluntary service from students.

Recommendation 35: Embassy Caracas should cease requesting or accepting voluntary
services. (Action: Embassy Caracas)

Eligible Family Member Position Descriptions

        The human resources office prepares generic “special projects coordinator” position
descriptions for eligible family members rather than clearly defining positions based on the
actual work. The management section then regularly changes eligible family member employees’
work schedules, duties, and hourly pay. In addition, the embassy does not pay eligible family

1
    31 U.S.C. § 1342, “Limitation on voluntary services.”
                                                 26
                                     SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      members benefits. The result is (b) (5)             and inefficient use of human resources staff
      time.

      Recommendation 36: Embassy Caracas should define eligible family member positions based
      on mission needs. (Action: Embassy Caracas)

      Recommendation 37: Embassy Caracas should pay benefits to eligible family members.
      (Action: Embassy Caracas)

      Locally Employed Staff Issues
(b) (5)




      Locally Employed Staff Performance Reports

              At the time of the inspection, there were 41 delinquent LE staff employee performance
      reports. The human resources office tracks submissions of employee performance reviews and
                                                27
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

sends regular reminders to supervisors. In accordance with 3 FAM 7584, before a within-grade
increase may be authorized, the supervisor must certify in writing that the employee’s
performance is fully successful or better. Per 3 FAH-2 H-312 b.(6)(a), supervisors need to
prepare objective and timely performance reports. Within-grade increases are sometimes delayed
because employee performance reports are late.

Recommendation 39: Embassy Caracas should include a work requirement for all supervisors
to complete performance reviews on time and rate the supervisors accordingly. (Action:
Embassy Caracas)

Locally Employed Staff Position Descriptions

       The OIG team reviewed a sample of personnel folders and found that a number did not
include current position descriptions. Supervisors have not updated or confirmed position
descriptions during the annual performance evaluation process and 71 were out of date. Per 3
FAH-2 H-443, position descriptions must remain up to date to ensure the accuracy of job
requirements. If position descriptions do not accurately reflect the duties performed by the
employee, there can be gaps in accountability and in documenting performance.

Recommendation 40: Embassy Caracas should update all outdated locally employed staff
position descriptions to reflect actual responsibilities and duties performed. (Action: Embassy
Caracas)

Locally Employed Staff English-Language Training

        The level of the LE staff’s English is extraordinarily low. Per 3 FAH-2 H-400 Appendix
C, employees should have some knowledge of written and spoken English, particularly those
employees who have regular contact with other English speaking employees (such as drivers).
Without the ability to understand and carry out simple verbal instructions and prepare forms or
reports, LE staff cannot provide adequate services to the embassy community.

       Informal Recommendation 29: Embassy Caracas should implement a training plan so
       that locally employed staff members have English-language competency that is
       commensurate with the requirement of their positions.

Locally Employed Staff Leave Plan

        Embassy LE staff follows a U.S.-style leave plan. Per 3 FAM 7312.3, the embassy should
convert to a leave plan consistent with prevailing practice to ensure that the package of benefits
is appropriate for local recruitment and at an appropriate cost to the U.S. Government.

Recommendation 41: Embassy Caracas, in coordination with the Bureau of Human Resources,
should convert its local employees to a leave plan consistent with prevailing practice. (Action:
Embassy Caracas, in coordination with DGHR)




                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Locally Employed Staff Training

        Lack of training for LE staff surfaced repeatedly in the OIG workplace and quality-of-life
questionnaire. LE staff members throughout the mission have never received training, including
those in need of technical skills in general services, human resources, and financial management.
Per 3 FAM 7631 and 3 FAM 7635.2, the human resources office should approach training
comprehensively and strategically. The mission policy on training dates back to 2004.

Recommendation 42: Embassy Caracas should implement a training plan that is linked to
embassy locally employed staff needs and is consistent with mission goals and objectives.
(Action: Embassy Caracas)

Foreign National Handbook

        The Embassy Caracas Foreign National Handbook was written in June 2005 and is out of
date. Per 3 FAM 7224.1, the handbook should be current and clearly explain the conditions of
employment, local compensation plan, ethical standards, and disciplinary processes.

Recommendation 43: Embassy Caracas should update its Foreign National Handbook. (Action:
Embassy Caracas)

Post Language Program

        The post language program does not meet employee needs. Instructors do not always
adjust classes to match the skill level of participants. As a result, many direct-hire employees opt
to pay a private tutor to structure the program to fit their individual needs. At present, 19
employees are enrolled in the post program and 20 pay a tutor for individual lessons.

        The post language policy was last distributed in 2005. The Foreign Service Institute
provides grant money for activities, including language immersion field trips, and for the
purchase of language lab material. In past years the embassy security officer discouraged field
trips for safety reasons, but that policy is being revisited.

Recommendation 44: Embassy Caracas should update and disseminate its post language
program policy. (Action: Embassy Caracas)

Recommendation 45: Embassy Caracas should implement a policy requiring coordination
among the post language officer, regional security office, and human resources officers to
determine the feasibility of field trips. (Action: Embassy Caracas)

Post Hotel and Restaurant Survey

       Embassy Caracas is delinquent in submitting the hotel and restaurant survey, which the
Department uses to update lodging and meals and incidental expenses for per diem rates. The
embassy submitted its last report in January 2006. According to the Department’s Standardized
Regulations post classification and payment table (Section 920), Embassy Caracas should
complete the hotel and restaurant survey in January of odd years or whenever there are
                                          29
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

    substantial changes in hotel costs (Section 074.32). The current per diem rates may not
    accurately reflect the prevailing cost of lodging and meals in each location.

    Recommendation 46: Embassy Caracas should complete and submit the required hotel and
    restaurant survey. (Action: Embassy Caracas)

    Education Allowance Survey

            Embassy Caracas has not submitted an updated education allowance survey since 2007.
    The Department’s Standardized Regulations Chapter 072.12 requires completion of Department
    form DS-63 report annually for each school that U.S. Government dependents attend. Yearly
    review of the education allowance is necessary so that the amount is consistent with the
    prevailing costs of tuition and transportation.

    Recommendation 47: Embassy Caracas should complete the required education survey and
    submit it to the Office of Allowances. (Action: Embassy Caracas)

    Financial Management

           The human resources officer serves as the acting financial management officer of this 17-
    person section. The financial management office clears travel advances regularly. The OIG team
    observed an unannounced cash verification that showed the cashier’s accountability in balance
    and operations in order, with the exception of cash payments and advances as noted below.

    Financial Management Officer Vacancy

            The financial management officer departed post in June 2010. Since then, the human
    resources officer has been acting financial management officer on four different occasions for
    periods of 2 to 5 months. Temporary duty personnel have assisted in a series of 1-month stays
    and one 5-month stay. Embassy Caracas urgently needs a full-time financial management officer
    to provide LE staff with the necessary guidance and oversight to deliver vouchering and payroll
    services effectively.

    Recommendation 48: The Bureau of Western Hemisphere Affairs should provide continuous
    financial management support for Embassy Caracas until a new financial management officer is
    assigned. (Action: WHA)
(b) (5)




                                             30
                                 SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      31
          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED
(b) (5)




   Unliquidated Obligations

           The OIG team reviewed unliquidated obligations for prior years and verified that all
   purchase orders, contracts, and grants (including those from the narcotics affairs section) from
   2010 were current. There was $542,000 unexpended in diplomatic security funding for local
   guards, roving patrol, and surveillance detection from the previous guard contract. The embassy
   terminated the contract prior to its expiration and retained funds in the diplomatic security
   allotment to settle any outstanding penalties or claims from the contractor. The contractor
   indicated that it was gathering supporting documents for its claim.

   Recommendation 53: Embassy Caracas should resolve claims from the former guard contractor
   and deobligate any remaining diplomatic security funds. (Action: Embassy Caracas)

   Suspense Deposit Abroad

           There was more than $58,230 in the suspense deposit abroad account from airline ticket
   refunds, funding from a congressional delegation, (b) (5)
                                                and other unidentified receipts. The accounting staff
   has cleared about half; however, $30,980 still needs to be applied to the appropriate accounting
   code, paid to recipients, or deposited to the U.S. Treasury. The deposits date back to 2005 and
   require considerable effort to identify the source of the funds and to reconcile the amounts to
   clear the balances. According to 4 FAH-3 H-326.2, the suspense deposit abroad account is to be
   used for only authorized purposes. Per 4 FAH-3 H-326.1 c. and d., suspense accounts are to be
   treated as collections and, per 4 FAH-3 H-311.1-1, should be reconciled regularly. Not
   reconciling deposits promptly increases work for the cashier and decreases accountability.

   Recommendation 54: Embassy Caracas, in coordination with the Bureau of Resource
   Management, should clear the remaining deposits in the suspense deposit abroad account.
   (Action: Embassy Caracas, in coordination with RM)

   Emergency Cash Payments

          The cashier is making emergency cash payments (b) (5)
   Routine utility payments are made in cash. Many of the cash disbursements are for maintenance
   supplies, vehicle parts and repairs, and moving and cleaning services, which could be purchased
                                             32
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

using blanket purchase agreements and paid for by electronic funds transfers. The embassy
currently has only four blanket purchase agreements in effect. Excessive use of petty cash invites
fraud and malfeasance.

Recommendation 55: Embassy Caracas should implement a policy to use blanket purchase
agreements whenever possible. (Action: Embassy Caracas)

Travel Advances

       The OIG team found six interim travel advances dating back to August 2011 that had not
been settled. The embassy uses E2 Solutions for travel authorizations and vouchers. The cashier,
however, is issuing interim cash advances for in-country travel outside the E2 Solutions travel
program. The cash advance is then cleared by reimbursing the cashier upon completion of travel.
Employees are reimbursed in U.S. dollars by electronic funds transfer for the remaining travel
claim. The E2 Solutions program can accommodate the issuance and settlement of the cash
advance. In using E2 Solutions for travel advances, the embassy can avoid overpayments and can
reconcile outstanding advances through a systematic process. Manually processing cash travel
advances increases the risk of fraud and malfeasance.

Recommendation 56: Embassy Caracas should issue all travel advances through E2 Solutions.
(Action: Embassy Caracas)

Temporary Quarters Subsistence Allowance

       Temporary quarters subsistence allowance is not being paid consistently to employees
who stay in temporary lodging. First, employees do not understand how to present their claim.
Second, there is no management instruction or procedure for paying this allowance, including the
manner of reimbursement, the calculation of payments, and the appropriate exchange rate.

Recommendation 57: Embassy Caracas should implement a written policy on the preparation of
employee claims and processing of temporary quarters subsistence allowance. (Action: Embassy
Caracas)

Time and Attendance

        The embassy is using an internal time and attendance spreadsheet form for employees to
report hours worked. Embassy personnel must complete the form each pay period in hard copy
and submit it to their respective section timekeeper. Use of E-forms would facilitate the entire
process, from reporting of hours to submitting approved forms to timekeepers.

       Informal Recommendation 30: Embassy Caracas should institute the use of the
       electronic Department of State form DS-4151 to facilitate time and attendance reporting.

Employee Association

       The board of the American Embassy Employee Association of Venezuela functions well.
The charter and bylaws are up to date. Services include a coffee bar/cafeteria, snack bar, dry
                                         33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

cleaning, visa photo machine, car wash, and fitness center. All services, except the fitness
facility, are contracted. Contractors pay the association 2 percent of sales and a rental fee each
month. There is a modest membership fee to join the fitness center.

        The American Embassy Employee Association of Venezuela received an unqualified
opinion from the auditor, A&T Consulting, in its audited financial statement for the period
ending December 31, 2010. The statement showed a net profit of $14,710 on gross sales of
$71,513, and the balance sheet reflected total assets and liabilities of $142,860. A management
letter was not included in the audit submission, so the board will have to undertake a review of
internal controls. The semiannual financial statement for the period January – June 2011 was due
August 15, 2011, and is near completion.

       Informal Recommendation 31: Embassy Caracas should undertake an internal controls
       review of its employee association.

Information Management and Information Security

        ICASS and OIG survey questionnaires reflect excellent feedback from customers on
information management section services. OpenNet administration is challenging, which the
classified annex to this report discusses. A team-oriented work environment has been a key
factor to the section’s success. Despite its good work, the section does not meet consular needs
due to inadequate bandwidth.

        Staffing gaps have plagued the section since the previous OIG inspection. American
positions have not been fully staffed for over a year. As a result, information management staff
often performs work outside its normal duties. Regional support has been inadequate due to
Venezuelan visa constraints.

        The OIG team identified two areas that require immediate attention—network bandwidth
and mail procedures. The team reviewed systems management, telephone operations, radio
programs, and mail operations. Information security issues are covered in the classified annex to
this report.

Network Operations

       The embassy’s network has severe latency issues due to inadequate bandwidth, which
considerably hinders operations. The network operates on a 4-megabit-per-second line. The
Department’s Enterprise Network Management team analyzed network limitations and
recommended increased bandwidth capacity.

        The OIG team observed delayed processing in operations throughout the mission. Several
Web-based applications, including those for consular operations, which are critically dependant
on reliable and rapid processing capability, are severely affected by slow systems processing.
The mission does not have the bandwidth needed to conduct operations. This is an urgent
requirement.


                                          34
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

      Recommendation 58: Embassy Caracas, in coordination with the Bureau of Information
      Resource Management, should acquire bandwidth adequate for mission operations. (Action:
      Embassy Caracas, in coordination with IRM)
(b) (5)




      Telephone Operators

              The telephone operators do not have procedures in place for addressing consular-related
      calls, which account for the majority of calls the operators receive. The telephone operators
      direct callers to the embassy consular Web site and to other consular-related information
      available online. The operators have requested official guidance for addressing consular calls.

             Informal Recommendation 32: Embassy Caracas should implement a procedure for
             telephone operators to address consular-related calls.

      Dedicated Internet Networks

              Embassy Caracas has two dedicated Internet networks that do not have a registered
      waiver with the Bureau of Information Resource Management per 5 FAM 872.2. The waiver for
      the two networks, which service the public affairs operation and the local banking system, has
      expired. The embassy must justify a dedicated Internet network by demonstrating a clear need
      that cannot be met by the unclassified network. If not appropriately managed and justified,
      dedicated Internet networks divert information management resources from the Department’s
      OpenNet network.


                                               35
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 33: Embassy Caracas should register all dedicated Internet
       networks with the Bureau of Information Resource Management.

Electrical and Cabling Racks

        All electrical racks in the chancery need maintenance. The racks have surplus wires and
unlabeled cabling, which could result in wasted time during maintenance. OpenNet network
switches have limited available ports for expansion. Staffing shortages and competing priorities
have limited the embassy’s ability to address this issue. Although the embassy has repeatedly
requested regional support on this matter, Venezuelan visa complications have precluded such
assistance. As a result, the embassy has not had regional support from digital technicians for
several years. The time required for operational maintenance in the electrical rooms will only
increase until proper action is taken.

Recommendation 60: Embassy Caracas, in coordination with the Bureau of Information
Resource Management and the Regional Information Management Center Florida, should
organize and appropriately label all electrical racks. (Action: Embassy Caracas, in coordination
with IRM and RIMC Florida)




                                         36
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The community liaison office (CLO) coordinator manages an active program with two
half-time coordinator positions and a half-time newsletter editor; however, two of the three
positions are vacant. The current coordinator has CLO training, regularly attends the country
team meeting, and has a weekly one-on-one meeting with the management counselor.

        The CLO coordinator does not meet one on one with the DCM. Because of long-term
staffing gaps in the front office, this practice was neglected. Given the importance of the CLO
function in this hardship post, the DCM should have the benefit of unfiltered insight into the
embassy community. Without these meetings, the front office risks having a skewed vision of
community morale.

Recommendation 61: Embassy Caracas should institute regular one-on-one meetings between
the community liaison office coordinator and the deputy chief of mission. (Action: Embassy
Caracas)

        In the past, there has been friction between the CLO co-coordinators due to lack of
clearly defined roles and responsibilities and inadequate supervisory guidance and oversight, all
of which diminish CLO office effectiveness.

Recommendation 62: Embassy Caracas should clearly define and distinguish the portfolios and
responsibilities of community liaison office co-coordinators and update their work requirements
statements accordingly. (Action: Embassy Caracas)

        In the past year, two family advocacy cases were handled awkwardly because clear
systems were not in place. Roles and responsibilities in family advocacy cases are detailed in 3
FAM 1812. Failure to adhere to regulations results in needless friction, embarrassment, and
ineffective advocacy.

       Informal Recommendation 34: Embassy Caracas should implement a policy that details
       the appropriate roles and responsibilities for family advocacy and disseminate that policy
       among the community liaison office, the regional security office, the health unit, and the
       deputy chief of mission.

Health Unit

       The health unit is located in the chancery and is adequately staffed. The Office of the
Medical Director, the Bureau of Western Hemisphere Affairs, and the embassy believe that it is
appropriate for the regional medical officer to continue serving as a regional asset.

        The ambulance services attached to hospitals are notoriously unreliable. There is a
private ambulance service available, but only on a subscription basis. The embassy has two


                                         37
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

   service subscriptions, but most personnel are not covered. The adequacy of emergency
   ambulance service is the only consistent client complaint regarding medical services.

   Recommendation 63: Embassy Caracas should identify and inform employees of transportation
   options for medical emergencies. (Action: Embassy Caracas)
(b)(5)(b)(6)




                                           38
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
       The COM annual management controls assurance statement did not contain any
reportable weaknesses.(b)(5)(b)(6)
                                                       The embassy conducted an informal risk
assessment and met with sections to discuss their findings, but there was no report identifying
any weaknesses or action plan.

       Per 2 FAM 021.1 a., the Department must maintain effective systems of management
controls. All levels of management are responsible for ensuring adequate controls over
Department operations, which can help prevent waste, fraud, and mismanagement.

       Per 2 FAM 023.1, the management control evaluation, improvement, and reporting
process consists of seven steps including but not limited to conducting risk assessments and
management control reviews, taking corrective actions, and reporting on management controls.

       Informal Recommendation 35: Embassy Caracas should conduct a missionwide risk
       assessment to identify potential weaknesses and prepare a corrective action plan.

Separation of Duties

        The employee performing physical inventories also manages the paper inventory.
Because of lack of training, the property management supervisor sometimes assigns the same
employee to do both the physical and paper inventories. In accordance with 14 FAM 411.2 d., a
sound management control system has no one individual in a position to control all aspects of
any transaction affecting the receipt, storage, or disposition of expendable or nonexpendable
personal property. A lack of checks and balances enables theft and fraud.

Recommendation 64: Embassy Caracas should implement internal controls for the appropriate
separation of duties required for physical and paper inventories. (Action: Embassy Caracas)

        Property staff also shares duties that must be separate. To compensate for a staffing gap,
the management counselor merged the property clerk and storekeeper position into one. That
position also serves as receiving clerk for goods received at the chancery. Management
reorganized the section to compensate for a long-term staffing gap in the storekeeper position.
Per 14 FAM 411.2 d., the duties that are to be separated whenever possible are procurement,
receiving, payment, property record keeping, and annual physical inventory taking. Because the
section is now short staffed, inexperienced, and untrained in their new functions, they help one
another with those functions, further confusing separation of duties.

Recommendation 65: Embassy Caracas should reinstitute the independent positions of property
assistant, property clerk, and storekeeper to facilitate adequate separation of duties and internal
controls. (Action: Embassy Caracas)




                                          39
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Warehousing

        The warehouse receiving area is not adequately defined. Shipments sometimes are
delivered to the middle of the warehouse and not logged in promptly. Because of staffing gaps
and competing priorities, officers have not been able to focus on receiving functions and internal
controls. Per 14 FAH-1 H-318.1-2 a. and b., clearly designated receiving and holding areas are
necessary to prevent mixing of newly arrived goods with other property. If the receiving area for
newly arrived, but not yet officially inventoried, goods is not clearly defined, then there is an
increased risk of theft.

Recommendation 66: Embassy Caracas should designate a receiving area and use it for storage
of all items not yet properly received and distributed to offices or entered into the warehouse
inventory. (Action: Embassy Caracas)

Post Differential

        The embassy notifies the Global Financial Services American payroll office to stop
payment of post differential when an employee departs post and to restart payment when he/she
returns. However, it is the employee’s responsibility to report his/her departure and return via
eServices, and there is no control in place to monitor employee reporting using eServices.

       Informal Recommendation 36: Embassy Caracas should implement a procedure to
       verify direct-hire employee absences from post.

        The financial management office is reporting an employee’s departure from and return to
post in one cable upon the employee’s return. American payroll procedures state that one cable
should be sent when the employee departs post and another cable upon his or her return. The
Department of State Standardized Regulations Section 532 states that post differential generally
should cease when the officer departs to the United States. Reporting the dates separately avoids
overpayments.

       Informal Recommendation 37: Embassy Caracas should report the dates of departure
       and arrival for stopping and restarting post differential in separate cables.

Overtime

       LE staff overtime is not approved in advance as required by the Code of Federal
Regulations, Volume 5, Section 111(a)(1).

       Informal Recommendation 38: Embassy Caracas should implement a policy that
       requires employees to request approval for overtime in advance.

Cell Phones and BlackBerry Devices

        Embassy Caracas has no controls for issuance of cell phones and BlackBerry devices. As
a result, employees make unreimbursed personal calls on their official cellular phones and
BlackBerry devices. According to mission management policy, employees are required to
                                         40
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

itemize calls made from their embassy extensions. Employees then identify personal calls and
pay the embassy cashier for those exceeding $10. The information management staff does not
monitor payment of personal calls, and the financial management office does not maintain a
ledger to track outstanding indebtedness. There is no policy on personal calls made from cell
phones or BlackBerry devices.

        Per 5 FAM 526.1 U.S. Government-owned cellular telephones and BlackBerry devices
are for official business. Each post must establish a policy on the personal use of government-
issued cellular telephones. At a minimum, this policy must define whether personal use is
allowed and the limits for such use without requiring employee reimbursement to the issuing
agency. The policy must include provisions to maintain adequate fiscal control, clarify user
responsibilities, require a signed receipt when phones are issued, provide a method for validating
personal calls, and require the user to return the instrument upon transfer. A lack of controls
invites misuse of official cellular telephones.

Recommendation 67: Embassy Caracas should enforce a cell phone and BlackBerry device
policy that is consistent with Department of State regulations. (Action: Embassy Caracas)

Consular Management Controls

Consular Subcashier Caracas

        The consular subcashier is located in an office at the end of a narrow corridor used for
interviewing windows in the American citizens services unit. (b) (5)
(b)(5)(b)(6)
                                        NIV application fees are collected off site, but immigrant
visa and American services fees are collected in both U.S. dollars and Bolivares. The Consular
Management Handbook (7 FAH-1 H-700) lays out procedures and standards for oversight of
consular collections and 7 FAH-1 H-280 for use of space. Per 7 FAH-1 H-743.1 c., at posts in
countries, such as Venezuela, where U.S. dollars can be exchanged at an unofficial rate higher
than the official rate, servicing consular officers should routinely ask applicants whether they
have paid in local currency or U. S. dollars and compare their answers to the receipts.

Recommendation 68: (b) (5)



Recommendation 69: Embassy Caracas should alter the door to the cashier booth to create a
“Dutch door” to facilitate oversight of the consular subcashier.(Action: Embassy Caracas)

Recommendation 70: Embassy Caracas should institute standard operating procedures for
adjudicating officers to confirm the currency used to pay consular fees so that the accountable
consular officer can reconcile fee collections appropriately. (Action: Embassy Caracas)




                                          41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Maracaibo

        The consular agent requires all clients to pay consular fees by cashier’s checks made out
to the U.S. disbursing officer, eliminating the need either for a cash advance or to make change.
This simplifies accountability and reduces vulnerability. When the OIG team reviewed
accountability, however, there were several shortcomings. (b) (5)




Recommendation 71: (b) (5)



       (b) (5)




       Informal Recommendation 39: (b) (5)



        Another impediment to cash reconciliation in Maracaibo is that the consular agent
reported that the embassy had not been returning the receipts for the consular collections on
Optional Form-158. The consular agent had no receipts after May 2011; 17 forms were missing.
Although it is the responsibility of the embassy’s financial management office to return the
receipt forms to Maracaibo, the fact that the problem has languished for so long is a reflection of
poor management by consular staff and a lack of commitment to accountability by the consular
agent.

       Informal Recommendation 40: Embassy Caracas should promptly return the general
       receipt form, Optional Form-158, for consular collections in Maracaibo.

Once the cash is being deposited properly and the Optional Form-158s are being returned
promptly to Maracaibo, the consular agent will be able to complete his required paperwork.

       Informal Recommendation 41: Embassy Caracas should implement procedures so that
       the consular agent in Maracaibo completes his daily accounting sheets and other monthly
       paperwork regularly.




                                          42
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Caracas should implement a strategy to mitigate the impact of
the closure of the U.S. Department of Commerce’s office in Caracas so that the embassy can
continue to support commercial activities in Venezuela. (Action: Embassy Caracas)

Recommendation 2: Embassy Caracas, in coordination with the Bureau of Overseas Buildings
Operations and the Bureau of Western Hemisphere Affairs, should explore the possibility of
using embassy personnel or qualified contractors to perform routine inspections, repairs, or
upgrades normally carried out by visiting U.S. personnel and, if feasible, implement a plan to do
so. (Action: Embassy Caracas, in coordination with OBO and WHA)

Recommendation 3: The Bureau of Human Resources should assign more second-tour, entry-
level officers to Embassy Caracas whenever possible, starting in the current assignment cycle.
(Action: DGHR)

Recommendation 4: Embassy Caracas, in coordination with the Bureau of Western
Hemisphere Affairs, should hire a second locally employed political assistant. (Action: Embassy
Caracas, in coordination with WHA)

Recommendation 5: Embassy Caracas should implement procedures so that all public
diplomacy grant recipients submit a final report of their performance. (Action: Embassy Caracas)

Recommendation 6: Embassy Caracas should implement a comprehensive but simplified visa
applicant intake process, requesting a visit from a Consular Management Assistance Team to
assist in the effort. (Action: Embassy Caracas)

Recommendation 7: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, the Bureau of Consular Affairs, and Embassy
Caracas, should provide urgent and continued technical expertise, including a bandwidth
increase, to resolve the systems problems in the consular section. (Action: IRM, in coordination
with WHA, CA, and Embassy Caracas)

Recommendation 8: Embassy Caracas, in coordination with the Bureau of Overseas Buildings
Operations, should incorporate the consular conference room into the visa unit work space.
(Action: Embassy Caracas, in coordination with OBO)

Recommendation 9: Embassy Caracas should enlist all Foreign Service officers from all
offices in the mission who have or could obtain consular titles and have recent visa adjudicating
experience to assist in processing visas. (Action: Embassy Caracas)

Recommendation 10: Embassy Caracas should implement a policy to process all qualified
nonimmigrant visa application renewals by drop box. (Action: Embassy Caracas)

Recommendation 11: Embassy Caracas should implement procedures for processing embassy
nonimmigrant visa referrals that comply with Department of State guidelines. (Action: Embassy
Caracas)

                                         43
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Caracas should perform a visa validation study of business
and tourist visa recipients in 2010. (Action: Embassy Caracas)

Recommendation 13: Embassy Caracas should implement procedures to provide regular
supervisory oversight to the consular agent in Maracaibo, using a checklist of vital consular
management controls issues as a guide. (Action: Embassy Caracas)

Recommendation 14: Embassy Caracas should implement a strategic plan to improve
customer service, including designating one clearly accountable employee for each
administrative support function. (Action: Embassy Caracas)

Recommendation 15: Embassy Caracas should designate one full-time position as customer
service representative and update the position description to reflect this responsibility. (Action:
Embassy Caracas)

Recommendation 16: Embassy Caracas should update the welcome to post cable, check-in
and check-out instructions, management policies, and management notices and post them on the
embassy intranet Web site. (Action: Embassy Caracas)

Recommendation 17: Embassy Caracas should implement a plan to prioritize its need for visa
support and explore alternatives such as offshore support via email, digital video conferencing,
and telephone conference calls. (Action: Embassy Caracas)

Recommendation 18: (b) (5)



Recommendation 19: Embassy Caracas should implement uniform service standards with
clear deadlines for service delivery and have the International Cooperative Administrative
Support Services council approve them. (Action: Embassy Caracas)

Recommendation 20: Embassy Caracas should update the International Cooperative
Administrative Support Services temporary duty policy and include procedures for charging
temporary duty visitors for these services. (Action: Embassy Caracas)

Recommendation 21: Embassy Caracas should implement a plan to better manage its housing
pool to minimize the use of temporary quarters for arriving employees. (Action: Embassy
Caracas)

Recommendation 22: Embassy Caracas should establish a rigorous program to oversee make-
ready contractors and owners so that embassy housing is clean and in good repair when
employees move in. (Action: Embassy Caracas)

Recommendation 23: Embassy Caracas should implement a comprehensive plan for the
timely response to maintenance emergencies, using embassy resources when necessary. (Action:
Embassy Caracas)

Recommendation 24: Embassy Caracas should implement a comprehensive short-term lease
routine maintenance and repair plan that includes maintenance of sufficient facilities
                                               44
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

management expertise in the housing office to provide adequate landlord liaison and contractor
oversight. (Action: Embassy Caracas)

Recommendation 25: Embassy Caracas should make timely receipt of shipments a mission
priority and provide accurate information to employees regarding the status of their effects.
(Action: Embassy Caracas)

Recommendation 26: Embassy Caracas should find and use a reliable courier service to
deliver routine documentation. (Action: Embassy Caracas)

Recommendation 27: Embassy Caracas, in coordination with the Bureau of Overseas
Buildings Operations, should update and implement its comprehensive space plan for the
chancery. (Action: Embassy Caracas, in coordination with OBO)

Recommendation 28: Embassy Caracas should institute a formal safety and health standing
committee. (Action: Embassy Caracas)

Recommendation 29: Embassy Caracas should implement a plan to dispatch motor pool
vehicles by radio. (Action: Embassy Caracas)

Recommendation 30: Embassy Caracas should implement clear guidelines for motor pool
drivers on the use of cell phones while driving. (Action: Embassy Caracas)

Recommendation 31: Embassy Caracas should train drivers on a systematic, daily preventive
maintenance routine, using the daily vehicle use form, and spot-check preventive maintenance
regularly. (Action: Embassy Caracas)

Recommendation 32: (b) (5)



Recommendation 33: Embassy Caracas should implement a policy on providing embassy
transport to employees whose official duties require them to work during hours when reliable
public transportation is not available. (Action: Embassy Caracas)

Recommendation 34: Embassy Caracas should provide the deputy chief of mission with a
status report on work requirements submissions to facilitate the prompt completion of the two
outstanding performance evaluations. (Action: Embassy Caracas)

Recommendation 35: Embassy Caracas should cease requesting or accepting voluntary
services. (Action: Embassy Caracas)

Recommendation 36: Embassy Caracas should define eligible family member positions based
on mission needs. (Action: Embassy Caracas)

Recommendation 37: Embassy Caracas should pay benefits to eligible family members.
(Action: Embassy Caracas)


                                         45
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 38: (b) (5)




Recommendation 39: Embassy Caracas should include a work requirement for all supervisors
to complete performance reviews on time and rate the supervisors accordingly. (Action:
Embassy Caracas)

Recommendation 40: Embassy Caracas should update all outdated locally employed staff
position descriptions to reflect actual responsibilities and duties performed. (Action: Embassy
Caracas)

Recommendation 41: Embassy Caracas, in coordination with the Bureau of Human
Resources, should convert its local employees to a leave plan consistent with prevailing practice.
(Action: Embassy Caracas, in coordination with DGHR)

Recommendation 42: Embassy Caracas should implement a training plan that is linked to
embassy locally employed staff needs and is consistent with mission goals and objectives.
(Action: Embassy Caracas)

Recommendation 43: Embassy Caracas should update its Foreign National Handbook.
(Action: Embassy Caracas)

Recommendation 44: Embassy Caracas should update and disseminate its post language
program policy. (Action: Embassy Caracas)

Recommendation 45: Embassy Caracas should implement a policy requiring coordination
among the post language officer, regional security office, and human resources officers to
determine the feasibility of field trips. (Action: Embassy Caracas)

Recommendation 46: Embassy Caracas should complete and submit the required hotel and
restaurant survey. (Action: Embassy Caracas)

Recommendation 47: Embassy Caracas should complete the required education survey and
submit it to the Office of Allowances. (Action: Embassy Caracas)

Recommendation 48: The Bureau of Western Hemisphere Affairs should provide continuous
financial management support for Embassy Caracas until a new financial management officer is
assigned. (Action: WHA)

Recommendation 49: (b) (5)




Recommendation 50: (b) (5)


                                         46
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 51: (b) (5)


Recommendation 52: (b) (5)


Recommendation 53: Embassy Caracas should resolve claims from the former guard
contractor and deobligate any remaining diplomatic security funds. (Action: Embassy Caracas)

Recommendation 54: Embassy Caracas, in coordination with the Bureau of Resource
Management, should clear the remaining deposits in the suspense deposit abroad account.
(Action: Embassy Caracas, in coordination with RM)

Recommendation 55: Embassy Caracas should implement a policy to use blanket purchase
agreements whenever possible. (Action: Embassy Caracas)

Recommendation 56: Embassy Caracas should issue all travel advances through E2 Solutions.
(Action: Embassy Caracas)

Recommendation 57: Embassy Caracas should implement a written policy on the preparation
of employee claims and processing of temporary quarters subsistence allowance. (Action:
Embassy Caracas)

Recommendation 58: Embassy Caracas, in coordination with the Bureau of Information
Resource Management, should acquire bandwidth adequate for mission operations. (Action:
Embassy Caracas, in coordination with IRM)

Recommendation 59: (b) (5)



Recommendation 60: Embassy Caracas, in coordination with the Bureau of Information
Resource Management and the Regional Information Management Center Florida, should
organize and appropriately label all electrical racks. (Action: Embassy Caracas, in coordination
with IRM and RIMC Florida)

Recommendation 61: Embassy Caracas should institute regular one-on-one meetings between
the community liaison office coordinator and the deputy chief of mission. (Action: Embassy
Caracas)

Recommendation 62: Embassy Caracas should clearly define and distinguish the portfolios
and responsibilities of community liaison office co-coordinators and update their work
requirements statements accordingly. (Action: Embassy Caracas)

Recommendation 63: Embassy Caracas should identify and inform employees of
transportation options for medical emergencies. (Action: Embassy Caracas)

Recommendation 64: Embassy Caracas should implement internal controls for the appropriate
separation of duties required for physical and paper inventories. (Action: Embassy Caracas)
                                                47
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 65: Embassy Caracas should reinstitute the independent positions of
property assistant, property clerk, and storekeeper to facilitate adequate separation of duties and
internal controls. (Action: Embassy Caracas)

Recommendation 66: Embassy Caracas should designate a receiving area and use it for
storage of all items not yet properly received and distributed to offices or entered into the
warehouse inventory. (Action: Embassy Caracas)

Recommendation 67: Embassy Caracas should enforce a cell phone and BlackBerry device
policy that is consistent with Department of State regulations. (Action: Embassy Caracas)

Recommendation 68: (b) (5)



Recommendation 69: Embassy Caracas should alter the door to the cashier booth to create a
“Dutch door” to facilitate oversight of the consular subcashier.(Action: Embassy Caracas)

Recommendation 70: Embassy Caracas should institute standard operating procedures for
adjudicating officers to confirm the currency used to pay consular fees so that the accountable
consular officer can reconcile fee collections appropriately. (Action: Embassy Caracas)

Recommendation 71: (b) (5)




                                          48
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Caracas should revise its FY 2013 Mission Strategic
and Resource Plan to include a goal to protect U.S. borders and citizens through consular,
security, and law enforcement work.

Informal Recommendation 2: Embassy Caracas should provide training for the Equal
Employment Opportunity counselor at the next available opportunity.

Informal Recommendation 3: Embassy Caracas should appoint and train a second Equal
Employment Opportunity counselor.

Informal Recommendation 4: Embassy Caracas should issue a management notice from the
chief of mission emphasizing Equal Employment Opportunity principles and identifying the
counselors.

Informal Recommendation 5: Embassy Caracas should appoint a Federal Women’s Program
coordinator.

Informal Recommendation 6: Embassy Caracas should appoint an Equal Employment
Opportunity liaison to the Foreign Service national employees in the mission.

Informal Recommendation 7: Embassy Caracas should request from the Foreign Commercial
Service a plan for closing its office.

Informal Recommendation 8: Embassy Caracas should institute a written public diplomacy
implementation plan.

Informal Recommendation 9: Embassy Caracas should implement a media engagement plan.

Informal Recommendation 10: Embassy Caracas should implement an alumni engagement
plan.

Informal Recommendation 11: Embassy Caracas should approve the new position description
detailing increased Information Resource Center responsibilities for the current office
management specialist in the press office.

Informal Recommendation 12: Embassy Caracas should create and use a central contact
database.

Informal Recommendation 13: Embassy Caracas should install clear signage to direct
applicants through the entry and exit processes.
                                        49
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Caracas should enforce its policy that consular
applicants be admitted only at the time of their appointments.

Informal Recommendation 15: Embassy Caracas should implement a policy to grant
exceptional entry of applicants into the consular section only with an American officer’s written
approval.

Informal Recommendation 16: (b) (5)



Informal Recommendation 17: Embassy Caracas should maintain the consular security
entrance building workspace to the same standard as other embassy offices.

Informal Recommendation 18: Embassy Caracas should implement its plan to restructure the
nonimmigrant visa unit teams to integrate entry-level officers into locally employed staff
supervision.

Informal Recommendation 19: Embassy Caracas should advertise the vacant consular
assistant and visa assistant positions and fill them with cleared Americans.

Informal Recommendation 20: Embassy Caracas should send cables to the Bureau of
Consular Affairs that explain its efforts to meet the visa workload challenge and request urgent
support and specific resources to reduce the backlog.

Informal Recommendation 21: Embassy Caracas should include oversight of the immigrant
visa unit in the deputy visa chief’s work requirements statement.

Informal Recommendation 22: Embassy Caracas should implement a policy that the assistant
regional security officer for investigations attend consular staff meetings.

Informal Recommendation 23: Embassy Caracas should provide the consular agent in
Maracaibo with access to updated copies of the Consular Agent Handbook and other consular
information resources.

Informal Recommendation 24: Embassy Caracas should update its Designation of
Responsibilities document and implement procedures to keep it up to date and easily accessible
to mission employees.

Informal Recommendation 25: Embassy Caracas should implement a policy that only
qualified employees translate management notices.

Informal Recommendation 26: Embassy Caracas should implement a comprehensive plan to
make better use of warehouse space.

Informal Recommendation 27: Embassy Caracas should implement Department of State
regulations for maintaining residential inventories.


                                         50
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 28: Embassy Caracas should provide facilities management staff
with appropriate and safe tools and equipment.

Informal Recommendation 29: Embassy Caracas should implement a training plan so that
locally employed staff members have English-language competency that is commensurate with
the requirement of their positions.

Informal Recommendation 30: Embassy Caracas should institute the use of the electronic
Department of State form DS-4151 to facilitate time and attendance reporting.

Informal Recommendation 31: Embassy Caracas should undertake an internal controls review
of its employee association.

Informal Recommendation 32: Embassy Caracas should implement a procedure for telephone
operators to address consular-related calls.

Informal Recommendation 33: Embassy Caracas should register all dedicated Internet
networks with the Bureau of Information Resource Management.

Informal Recommendation 34: Embassy Caracas should implement a policy that details the
appropriate roles and responsibilities for family advocacy and disseminate that policy among the
community liaison office, the regional security office, the health unit, and the deputy chief of
mission.

Informal Recommendation 35: Embassy Caracas should conduct a missionwide risk
assessment to identify potential weaknesses and prepare a corrective action plan.

Informal Recommendation 36: Embassy Caracas should implement a procedure to verify
direct-hire employee absences from post.

Informal Recommendation 37: Embassy Caracas should report the dates of departure and
arrival for stopping and restarting post differential in separate cables.

Informal Recommendation 38: Embassy Caracas should implement a policy that requires
employees to request approval for overtime in advance.

Informal Recommendation 39: (b) (5)



Informal Recommendation 40: Embassy Caracas should promptly return the general receipt
form, Optional Form-158, for consular collections in Maracaibo.

Informal Recommendation 41: Embassy Caracas should implement procedures so that the
consular agent in Maracaibo completes his daily accounting sheets and other monthly paperwork
regularly.



                                         51
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                             Name                          Arrival Date
Ambassador                                   Vacant since 07/10
Chargé d’affaires                            James Derham                        10/11
Deputy chief of mission                      Kelly Keiderling                    07/11
Chiefs of Sections:
 Management                                  Cecilia B. Elizondo-Herrera         09/09
 Consular                                    Dale Rumbarger                      03/11
 Political                                   Robin D. Meyer                      08/09
 Economic                                    Darnall C. Steuart                  06/08
 Public Affairs                              John Connerley                      07/09
 Regional Security                           Robert E. Myers                     08/11
Other Agencies:
 Foreign Agricultural Service                David W. Cottrell                   08/11
 Department of Defense                       Jeffery L. Radogowski               07/11
 Department of Homeland Security
  Immigration and Customs Enforcement        John W. Masalski                    08/08
 U.S. Agency for International Development   Kendra Spangler                     06/10
 Drug Enforcement Administration             Wesley Tabor                        06/10
 Federal Bureau of Investigation             Maximo Delancer                     12/09




                                       52
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO             Community Liaison Office
COM             Chief of mission
DCM             Deputy chief of mission
Department      U.S. Department of State
ELO             Entry-level officer
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
ICASS           International Cooperative Administrative Support Services
LE              Locally employed (staff)
MSRP            Mission Strategic and Resource Plan
NIV             Nonimmigrant visa
OIG             Office of Inspector General
PAS             Public affairs section




                            53
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
